No.

Supreme Court, U.S.
FILED

IN THE

JUL 2 2 2021

SUPREME COURT OF THE UNITED STATES

office of the clerk

sLuS ■. /V- € cJj
X
VA?'AtCjfe.

— PETITIONER

(Your Name)
vs.
— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

LMttA^ Q&
&?/£. CtA-CW'f'
a/si^J
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE) /
PETITION FOR WRIT OF CERTIORARI

TWa^l
(Your Name)

Z-0>Y
(Address)

#r(tv*y 97 r
^

(City, State, Zip Code)

2^2'^- 1B&!
(Phone Number)

RECEIVED
AUG 2 h 2021

7arS^>

QUESTIONS PRESENTED:

1.

DO THE DEFENDANTS HAVE ANY RIGHT TO ABUSE AN ELDERLY AND DISABLED PERSON
WITHOUT THE LAW DO ANYTHING ABOUT IT?

2.. DO THE LAW PROHIBIT ABUSE OF CHILDREN under 18 ,18 WITHOUT DIONG ANYTHING ABOUT?
3. DO THE LAW ENCOURAGES US BANK TRUST AND CALIBER HOME LOAN EVICTING PATRICK CHARLES
AND FAMILY FORM HIS HOME A DEBT NOT OWED FOR A DEBT NOT OWED AND THE COURTS SHOW NO
JUSTICE?
4. THE DEFENDANTS IN THIS CASE VIOLATED THE FAIR DEBT COLLECTION ACT, BY WANTING PLAINTIFF
TO PAY THE DEBT OF THE FORMER OWNER, RALPTH T. BROWN, WHEN THE LAW PROHIBITS?
5. WHAT ABOUT THE DAMAGES CAUSED BY CALIBER HOME LOANS AND US BANKK TRUST N.A.,
INFLICTING PAIN , EMOTIONAL DISTRESS, DEPRESSION , ABUSING PLAINTIF, PUTTING HIM AND
FAMILY, DESTROYING HIS PROPERTY, PLAINTIFF WAS DEPRIVED OF HIS MEDICAL SERVICES IN HIS
HOME, MEDICATION, CAUSING RISK TO HIS LIFE WHILE ON THE STREET,WITHOUT FOOD AND WATER,
PLAINTIF IS UNDER GOING PHYCHIRATIC COUNSELING , THE REST OF THE FAMILY IS UNDERGOING
COUNSELING DUE TO ABUSE, CAN THE COURTS ALLOW THE DAMAGES TO GO FREE? PLAINTIFF IS A
VICTIM OF CIRCUMSTANCE.
6.6DO THE LAW PROHIBITS VIOLATION OF AND A ELDERLY AND CHILDREN AND ALLOW THE ABUSERUS BANK TRUST AND CALIBER HOME GO FREE WITH OUT PENALTY?
7. THE JUDGE IN THE DISTRICT COURT VIOLATED PLAINTIFF CONSTITUTION RIGHT-JURY TRAIL CODE38,
SHE APPROVED TRAIL BY JURY AND DPRIVED THE JURY FROM RENDERING JUDGMENT IN THE CASE,
DOES THE LAW PROHIBITS SUCH VIOLATION.?
.8 THE JUDGE - KAREN N. JOHNSON IN THE US DISTRICT COURT WAS IMPARTIAL IN THE CASE SHOWED
PREPRENCE OR BIAS , IMPARTIALITY , TO THE DEFENDANTS, DID NOT PLAINTIFF TO SPEAK DOING THE
HEARING , BUT THE DEFENDING JUDGE LAUREN N. BEREVELY, DID NOT PRESENT IN THE COURT BUT
THE US DISTRICT JUDGE DID ALL THE SPEAKING ON HER BEHALF AND RENDER JUDGMENT IN THE CASE
WHEN THE JURY WAS TO RENDER JUDGMENT,, IS THIS VIOLATION PRO HIBIT?
9..SOME DOCUMENTS AND MOTION FILLED WAS BEING DENIED BY HE U.S DISTRICT JUDGE NANCY K.
JOHNSON , THE ONLY MOTION THE JUDGE ACCEPTED WAS MOTION FOR JURY TRAIL, WHY DID SHE
ACCEPTED IT? BECAUSE PLAINTIFF AND DEFENDANTS AGREED THAT JUDGMENT WAS NOT TO BE
RENDERED BY A MAGISTRATE JUDGE, SHE GRANTED MOTION BY JURYS BYR DEPRIVED THE JURY FROM
RENDERING THE JUDGMENT IN THE CASE, IS THIS NOT IMPARTIALITY?

10 THE JUDGE NANCY K JOHNSON, DUE TO IMPARTICIALIRY, BIAS, LOST JURISDICTION IN THE CASE,
DOES HER JUDGMENT STANDS?
11. IS IT RIGHT FOR THE BANKS CALIBER HOME LOANS TO EVICT PLAINTIFF WRONGFULLY AND
ABANDONED THE PROPERTY 507 SANDY WALK STAFFORD TEXAS 77477, ALLOWING THE PROPRERTY TO
BE DISTROYED WITH MOLD WHEN THE PLAINTIFF AND FAMILY NEEDS A PLACT TO STAY?
12. DOES THE LAW PROHIBITS A FEDERAL JUDGE TO DEPRIVED PLAINTIFF OF JURY TRIAL WHEN THE
MOTION FOR JURY TRAIL WAS APPROVED BY NANCY K JOHNSON?
13 DOES THE JUDGE IN THE CASE CHARLES ESKRIDGE DENIED A MOTION FOR JURY TRAIL WHEN IT WAS
ALREADY GRANTED?
14. DO THE LAW ALLOW THE SUMMARY BY NANCY K. JOHNSON CODE 56, WHEN THE JUDGMENT IS
NULL AND VOID?
15. WHAT ABOUT THE DAMAGES CAUSED TO PLAINTIFF AND FAMILY, PLAINTIFF AND FAMILY IS
UNDERGOING COUNSELING AS A RESULT OF THIS WRONG FULL EVICTION?
16. THE US DISTRICT JUDGE HON. CHARLESESKRIDGE, ARTE THE CASE WAS TRANSFERRED TO HIM ,
AFTER HE DISMISSED THE CASE WITH PREJUDICE IN DECEMBER 22 ND AND CASE WAS APPEALED TO
THE U.S COURT OF APPEALS FOR THE 5th CIRCUIT, STILL RENDER JUDGMENT IN THE CASE, THE HON.
JUDGE LOST JURISDICTION IN THAT CASE RENDER JUDGMENT, CAN HIS JUDGMENT STAND OR IT LEGAL
FOR JUDGE ESKRIDGE TO RENDER JUDGMENT, WHEN HE LOST JURISDICTION?
17 .THE DEFENDANTS U.S. BANK, VIOLATED THE FDPA BY REVEALING SOMEONES DEBT TO PLAINTIFF
NOT ONLY THAT REQUIRES PLAINTIFF TO PAY ANOTHERS DEBT, WHICH IS UNKOWN TO PLAINTIFF, IS
THIS NOT A VIOLATIONOF THE FDPA
18. PLAINTIFF HAS NO ACCOUNT WITH YOUS BANK AND NO CONTRACTUAL AGRREMENT WITH THE
BANK BUT THE BANK U.S BANK TRUST WANTS ME TO PAY A DEBT NOT OWED IS THIS LEGAL?
PLAINTIFF AND FAMILY HAS BEEN DAMAGED, SUFFERING AND WILL CONTINUE TO SUFFER, UNDER
GOING COUNSEL AS A RESULT OF THIS WRONGFUL EVICTION , PLAINTIFF HAS PAID ALL THE TAXES
FROM 2015, RENOVATED THE PROPERTY SPENDING $20,000.00, KEPT HOME INSURANCE ON THE
PROPERTY, CALIBER HOME LOANS AND US BANK TRUST PUT OUT PLAINTIFF FOR A DEBT NOT OWED ,
PLAINTIFF IS SEEKING JUSTICE , RELIEF, EQUITY IN THIS MATTER, FOR DAMAGES.

LIST OF PARTIES
ALL PARTIES APPEAR IN THE CAPTION OF THE CASE ON THE COVER PAGE.
THE PARTIES ARE : PATRICK CHARLES PETITIONER

VS.
CALIBER HOME LOANS / US BANK TRUST TRUSTEE, N.A

(ALL) PARTIES DO NOT APPEAR IN THE CAPTION IN THE CAPTION OF TBHE CASE ON THE COVER PAGE .
A LIST OF ALL PARTIES TO THE PROCEEDING WHOSE JUDGMENT IS THE SUBJECT OF THIS PETOTION IS AS
FOLLOWS
CALIBER HOME LOANS / US BANK TRUST N.A. TRUSTEES.

RELATED CASES:
UNITED STATES V. SCIUTO 52 . FED 2nd 842;845(7th CIV 1996)
28 us. Code 144 bias, prejudice or bias U.S judge Me keener
v.Ppennsylvan403 US 528 (1971), BOLIOCK V. UNITED ST, 763 F. 2 ND
1115, 1121 (10th CIR, 1995) JUDGE BIAS SECTION 144 , BUT DUE ON
DUE PROCESS CLAUSE UNITED STATES V. SCIRTO , 521 F2ND 842 ,845
CIR, 1976)
RIDGWARDOD BD OF EDUS V. N.E EX REL ME, 172 ,F3D 238, 254 93rd
CIR 1990 JUDGE ACTED UNDER COLOR OF LAW , CONSPIRED AND
DEPRIVED PLAINTIFF FEDERAL LAW PROTECTION ROGHT MARCHESE V.
UMSTEAD V. 110. F.SUPPLY 2nd 361,371 9 ED PA ,20000)
JUDGMENT IS VOID ACCORDING TO CIVIL PROCEDURE SECTION 473 (D)
THE JUDGMENT IS IS INCONSISTAT WITH AND VIOD -BIAS BASS V.
HOUGHLAND , 172 0 2nd -205 9 5th CIR , ITS WITHOUT DUE PROCESS OF
THE LAW, ITS WITHOUT JURISDICTION MARGOLES V. JOHS, F 2nd 97th
, CIR 2910
PEOPLES V. ROLLAND ( 581)
104. U..S 605,26 LED 861.

N.E , KALL V. FEUERSTIEN (1940), 1882).

BOARD OF VOUNTY COM RSOF BRYAN COUNTY ,OKL V BROWN 520U.S
307,405 (570 US. 397,405 (1997 QUOTING DANIEL V. WILLIAM , US
327,330 (1986) JORDAN V FOX ROTHCHILD ) 20 &FRAKEL, 20 F 3rd
1250, 1277 9 3rd , CIV1994)
DEPIVATION OF CONSTITIONAL RIGHT BY JURY, ACTING UNDER COLOR
OF LAW , RIDGWOOD BD OF EDUC V. NE.EX REL 3rd CIR 199)
Conspired under color of law conspired MERCHESE. V UMSTEAD V. 110
F. SUPP 2ND„361,371, (ED PA 2000).
THE JUDGMENT ENTERED IN THIS CASE IN THE U,S DISTRICT COURT IS
VOID , IT IS A PRO SE ABUSE OF DISCRETION FO A JUDGE TODENY
MOTION TOVACATE JUDGMENT, UNITED STATES V. GARDEN SUPPLY ,
55 F. 4RD 1311,1317 9 7th CIR 1995)
ELDERLY ABUSE 22.4 65 YEARS OR OLDER IS PROCTED UNDER THE LAW
CODE 22,4

PLAINTIFF HAS SUFFERED PHYSICAL OR EMOTIONAL ABUSE,
EMOTIONAL ABUSE , TRAUMA, PHYCHOLOGICAL ABUSE , PRESENTLY
UNDER PSYCHIATRIST CARE DUE TO ABUSE BY DEFENDANTS , CALIBER
HOME LOANS AND US BANK TRUST N.A.

11. TABLE OF CONTENTS
1 QUESTIONS PRESENTED

1

11. JURISDICTION

11

111.

CONSTITIONAL AND STATUTORY PROVISION INVOLVRD -----

IV.

STATEMENT OF THE CASE

V.

REASONS FOR GRANTING THE WRIT-

VI.

CONCLUSION-

INDEX TO APPENDICES

APPENDIX A.
APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E

-------- 3

------ 4

5

——6

I
)

►

Case No. 21-20122

►

I
)
TABLE OF AUTHORITIES

>

\

>
ELDER ABUSE TX 22.04

►

NEGLECT TITLE 7 368 PC PHYSICAL EMOTIONAL ABUSE

►

1821(111) ELDER ABUSE BILL PROTECT SENIORS
ELDER ABUSE AFFECTSNEARLY 1.10 SENIOS EACH YEAR.

>

(ID .AT407 HUMILIATION OF ELDERLY)

>

763 F. 2nd 115,121(10™ CIR, 1985)

>

►

►

BIAS SECTION 144, F2ND 842, 845 (7™ CIR, 1976)\
I

172 2nd -205 (5™ CIR)\660F. 2NDN (7™ CIR 291)

>

656 F.3rd 1311,137(7CIR 1995 4.5.8 RIGHT AND DUTY TO,ENSURE FAIR TRIAL

>

RPAPL 768 INDIVIDUAL AR PROTECTED FROM UNLAWFUL EVICTION

>

►
►

NRS 40.253-40.254)
\NRS 40 253- 40.254MOTION TO VACATE JUDGMENT 660 F 2nd 291
(7™ CIR1981) CERT DENIED 419 U.S 909 102 S. CT1256, 42 L ED 2nd 309 ((1975)\

>

►

TEXS HUMAN RESOURCES CODE 48.001

>

TEXAS HUMAN RES CODE 48.004\TEXAS HUMAN RESOURCES CODE 48.002 (A)(#)TEXAS PENAL
RESOURCES CODE 22.04 INJURY TO ADULT OR DISABLED

i
I

18 US. CODE 242 DEPRIVATION OF CONSTITUTIONAL RIGTT
VIOLATION OF JURY TRAIL CODE 35-36.-JURY TRIAL DEMAND
AOA ADMINISTRATION ELDER ABUSE ADMINISTRATION TO PROTECT FRO ABUSE.
WELF 156.57,156.115610, SA, SUP144 CAL APP4TH AT P 88 PUBLIC

210,100(292-297
EJA ELDER ABUSE HELPING AMERICANTO LIVE WITH SAFTEY DIGNITY, ADINDEPENDENCE,, 2012 FALL

36 (#0.103.105
CONSTITUTIONAL VIOLATION 42USC1983
HUMAN RESOURCE CODE 102.003

15610. 07
15610.63 ABUSE

5

TABLES OF AUTHORITIES CONTINUED

STATUTES

1

28 U.S. 1257

1 .UNITED STATES CONSTITUTIONAL VIOLATION, JURY DEPRIVATION VIOLALATION
2. UNITED STATES OF TEXAS-HUMAN RIGHT VIOLATION ELDERLY ABUSE
. 3. STATE VIOLATION -CHILDREN ABUSE
4. VIOLATION OF IMPARTAILITY IN CASE AND JUDGING UNDER COLOR OF THE LAW.
5.

WRONGFUL EVICTION FOR DEBT NOT OWED

6. JURISDICTION VIOLATION

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTIONAL STATEMENT page 7
THE COURT HAS JURISDICTION OVER THIS APPEAL PURSUANT TO 28 U.S. .C. 1292
BECAUSE IT IS AN APPEAL OF AN ORDER THAT DENIED APPELLANT -PATRICK CHARLES ASSESTION OF
DAMAGES, CIVIL RIGHT VIOLATION,Constitutional,ViolationHUMAN RIGHT, AND ELDERLY ABUSE, AND A
BEBT THAT HE DOES NOT OWED AND HE AND FAMILY IS DAMAGED AS A RESULT OF THIS CRIMEAPPELLANT- PLAINTIFF TIMELY APPEALED BY FILING HIS NOTICE WITH IN REASONABLE TIME AS
PERMITTED BY LAW.

CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED
US CONSTUTION AMEND V

VIOLATION OF CONSTITUTIONAL RIGHT ARTICLE 111 SECTION 2
VIOLATION OF JURY TRIAL CODE38 356, F3RD 1311, 137 (CIR 1998, 45 .8
OBSTRUCTION OF JUSTICE 18. USC. 1503 VIOLATION OF
US 28 CODE 144 BIAS OR PREJUDICE BILL OF RIGHT 42 USC -1983
VIOLATION OF RPAL 768, INDIVIDUAL PROTECTION ACT

VIOLATION OF FDCPA 15U.S CODE 455,, IMPARTIALITY
CODE OF JUDICAL CONDUCT CODE 74.059
VIOLATION OF FAIR DEBT COLLECTION ACT

/-£' U - S •

/

VIOLATION OF THE ACOURT JUDGING AND OVEREXISING POWER AND AUTHORITY.

CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED
US CONSTUTION AMEND V

VIOLATION OF CONSTITUTIONAL RIGHT ARTICLE 111 SECTION 2
VIOLATION OF JURY TRIAL CODE38 356, F3RD 1311,137 (CIR 1998, 45 .8
OBSTRUCTION OF JUSTICE 18. USC. 1503 VIOLATION OF
US 28 CODE 144 BIAS OR PREJUDICE BILL OF RIGHT 42 USC -1983
VIOLATION OF RPAL 768, INDIVIDUAL PROTECTION ACT

VIOLATION OF FDCPA 15U.S CODE 455,, IMPARTIALITY
CODE OF JUDICAL CONDUCT CODE 74.059
VIOLATION OF FAIR DEBT COLLECTION ACT
VIOLATION OF THE ACOURT JUDGING AND OVEREXISING POWER AND AUTHORITY.

STATE OF THE CASE.
THE SUPREME COURT OF THE UNITES STATE SHOWED REVIEW THE US DISTRICT DECISION , THE
VIOLATION OF PLAINTIFF HUMAN RIGHT, CONSTITUTIONAL RIGHR , THE IMPARTIALITY BY THE US
FEDERAL JUDGE, VIOLATION OF THE FAIR DEBT PROCTION ACT, ILLEGAL JUDGMENT RENDERED BY THE
JUDGE IN THIS CASE, AND THE JUDGMENT RENDERED BY JUDG CHARLES EKRIDGE WHE HIS
JURISDICTION WAS LOST AND THE CASE WAS CLOSED TO THE US DISTRICT BECAUSE PLAINTIFF HAD
FILED A PETOTION WITH THE COURT OF APPEALS.THE SUPREME COURT OF THE UNITED STATES SHOULD
REVIEW THE JUDGMENT AND DECISION RENDERED BY THE COURT BY DISMISSING MY CASE, THE
FEDERAL LAW VIOLATION ,THE ABUSE BY DEFENDANTS TO ELDERLY PERSON AND CHILDREN , THE
COURTS DID NOT REVIEW THE CASE SET BEFORE AND NEVER REVIEW AND ADDRESS THE VIOLATION
AND CRIME COMMITTED BY DEFENDANTS AGAINST A DISABLED PERSON AND CHILDREN. THE COURT
DID NOT ADDRESSED THE UNLAWFUL EVICTION, EVICTINING THE WRONG PERSON FOR A BEBT NOT
OWED, THE COURT DID NOT REVIEW THAT THE FORMER OWNER WHOM THE EVICTION WAS
ADDRESSED TO WAS NOT RESIDIDING AT 507 SANDY WALK STAFFORD TEXAS77477, HE LOST
POSSESSION OF THE PROPERTY SINCE 2015.THE U.S DISTRICT COURT OVER THE CASE BUT DISMISSING
THE CASE WITH PREJUDICE AND RENDERING JUDGMENT IN THE CASE IS VOID.

ACTION NUMBER 21-20122

page number 9-10

STATEMENT OF THE CASE:
PLAINTIFF WHO IS ELDERLY AND DISABLED, HE AND HIS ENTIRE FAMILY, WAS PUT OUT FROME HIS
HOME LOCATED AT 507 SANDY WALK, STAFFORD TEXAS 7477 ON OCTOBER 18th 2019 , IN TY\E COLD
WINTER AND IN THE RAIN, ALL OF THEIR PERSONAL PROPER WERE DESTROYED AND LOOTED. PLAINTIFF
WAS EVICTEDB ILLEGALLY FOR A DEBT NOT KNOWN, PLAINTIFF AQUIRED THE PROPERTY,N IN
NOVEMBER 3rd 2017, A CONTRACT DEED WAS FILED IN THE COURT, FROM THE TIME OF PURCHASE ,
PLAINTIFF AND FAMILY PAID ALL TAXES, FROM 2015 TO THE TIME THAT HE WAS EVICTED ILLEGALLY.
PLAINTIFF DID ALL THE UPKEEPING, MENTAINED HOME, KEPT INSURANCE, DID RENOVATION. PLAINTIFF
BECAME A VICTIM OF CIRCUMSTANCES, HE AND FAMILY WAS WICKEDLY EVICTED FOR AN UNKNOWN
DEBT. PLAINTIFF IS DISABLED ELDERLY WAS DEPRIVED FROM FROM MEDICAL SERVICES IN HIS HOME,
FOOD, WATER SHELTER, MEDICATION, AND EXPERIENCED POOR HYGIENE,, HOMELESSNESS, HE WAS
EXPOSED TO DANGER , RISK, AND AS A RESULT OF THIS EVICTION, PLAINTIFF AND FAMILY SUFFERED
PHYCHICAL PAIN, FINANCIAL HARDSHIP, STRESS, DEPRESSION, EMOTIONAL DISTRESS , MURANSKY V.
GODRVA CHOCLATE IER INC 9799F 3RD917,926((llth CIR. 2020 (ENBANC)SE ALSO HUFF ,
SERVS823,F3D,458 6th CIR, 2019. PLAINTIFF AND FAMILY WAS ABUSED AND SUFFERED BITTERLY AS A
RESULT IF BEING PUT OUT OF HIS HOME., PLAINTIFF SUFFERED HOMELESSNESS,, HUMILIATION,
MENTAL ANGUISH, TRAUMA,, STRESS,, EMOTIONAL DISTRESS, PHYCHOLOGICAL DISTRESS, AS A RESULT
OF A DEBT NOT OWED., PLAINTIFF AND FAMILY IS UNDERGOING COUNSELING AS A RESULT OF THIS
ABUSE., PLAINTIFF SUFFERED DIRECT INJURY- MURANSKY 979F3D 926 AT 927,, PLAINTIFF WAS
NEGLECTED,, THE OFFICERS PUT OUT PLAINTIFF AND FAILY ON THE STREE WITHOUT MERCY, PLAINTIFF
IS NOT THE ORMER, RALPTH T. BROWN, PLAINTIFF WAS PUT OUT WITHOUT THE OFFICERS OFFERING
ANY HELP. AS TO WHERE TO LIVE.DEFENDANTS CALIBER OME LOANS AND U.S. BANK TRUST N.A ABUSED
PLAINTIFF/ HIS FAMILY. UNDER THE LAW, DEFENDANTS IS PROHIBITED ABUSE OF ELDREY AND
CHILDREN, PLAINTIFF CHILDREN IS UNDER AGE WAS ABUSED ALSO., PLAINTIFF VIOLATED THE STATES
AND FEDERALY LAWS IN COMMITTING THE CRIME OF ABUSE ., ABUSED IS CONSIDERED FELONY IN
TEXAS, PLAINTIFF WAS NEGLECTED, BY DEFENDANTS WND EXPERIENCED NEGLECT, HUILIATION,
PLAINTIFF BROKE THE LAW TO ABUSEDAN ELDERLY AND CHILDREN PINAL CODE 22.04, PLAINTIFF
EXPERIENCE EXPERIENCED PHYSICAL ABUSE , DEHYDRATION, POOR HYGIENE , BEHAVIOR CHANGES AS
A RESULT OF THIS ABUSE, AND WRONGFUL EVICTION, DEFENDANTS DID THIS WILLFULYLY, DEFENDANTS
EVICTED PLAINTIFF AND FAMILY AND THEN DEFENDANTS ABANDONED THE PROPERTY, THE HOUSE ON
507 IS TAKEN OVER BY MOLD ITHE PLACE UPKEPT. PLAINFIFF"S COONSTITUTIONAL RIGHT WAS
VIOLLATED,THE FORMER OWNER RALPTH T. BROWN LOST THIS PROPERTY SINCE 2015 BUT THE
DEFENDANTS FAILED TO DO REACH TO FIND OUT THAT THE FORMER OWNER LEFT THE PROPERY SINCE
2015 BUT EVICTED PLAINTIFF OF A BEBT NOT OWED,., THE DEFENDANTS CALIBER HOME LOANS AND
U.S.BANK TRUST N.A.EVICTED PLAINTIFF AND FAMILY RECKLESSLY AND NEGLIGENTLY, UNDER THE
RPARL AND 768 , INDIVIDUALS ARE PROCECTED FROM UNLAWFUL EVICTION. DEFENDANTS EVICTED
PLAINTIFF UNLAWFULLY.. INDIVIDUALS WHO HAS LAWFULLY OCCUPY A DWELLING PLACE AT 30 DAYS IS
PROCEED UNDER THIS LAW ACCORDING TO NEW YORK LAW , RPAL21 AND 768 ,, PLAINTIFF AND
FAMILY WAS ABUSED BY DEFENDANTS THEREFORE, SUFFERED DAMAGES.

BURRELL V HENDERSO’N 11 AL. 434. h 3nD 82b.831‘V('6XtR~206,7lDD'Gf\/IENriS'VOtO'ANO1VIOTtON'TOVACATE JUDGMENT SHOULD HAVE BEEN RENDERED PERSUANT TO RULE 60 (b)($), THE COURT ACTED
INCONSISTENT WITH DUE PROCESS OF THE LAW, ID .AT 1316-PRICE V. WYETH CORP, 505 F. 3D 624 (7th
CIR. 20070, THE COURT ERRED IN DENYING TO VACATE JUDGMENT ,IT IS A PER SE ABUSE OF
DIRECTION THEREFORE^PPEALED L TO THE UNITED STATES FOR RELIEF, FOR DAMAGES FOR A DEBT
NOT OWED. PLAINTIFF WAS TAKEN AWAY FROM HUM BUT THE HOUSE IS ABANDONED, VACANT NOT
UPKEPTALOTOF HIGH
BUSHES HAS GROWN AT THE PREMISES, THE HOUSE IS VACANT.PLAINTIFF IS ASKING FOR HIS HOUSE
BACK, FOR RELIEF FOR DAMAGES, AND ASKING FOR 20MILLIONS FOR DAMAGE FOR HIM AND FAMILY
OR WHAT EVER IS DEEMED RIGHT BY THE COURT, PLAINTIFF HAS SUFFERED BITTERLY FOR A DEBT NOT
OWED, WE A VICTIMS OF CIRCUMSTANCES. THE FAMILY IS STILL UNDERGOING COUNSELING FOR
TRAUMA, DEPRESSION , WE HAVE SUFFERED BITTERLY FOR ANOTHR PERSOI^DEBT.
THE DISTRICT COURT ERRED BY DISMISSING CASE WITH PREJUDICE, THERE IS A PROBABLE CAUSE AND
EVIDENCES PRESENTED IN THIS CASE ARE TRUE.
THE DISTRICT COURT ERRED BY VIOLATING PLAINTIFF CONSTITUTION RIGHT, TO ALLOWING JURY TO
RENDER JUDGMENT
A. THE DISTRICT COURT BY NOT ADDRESSING THE ISSUES PRESENTED IN THE CASE.
B. THE DISTRICT COURT BY DENYING PLAINTIFF MOTION TO FILE ADDED PINAL CODE,
C. THE DISTRICT COURT ERRED BY BEING BAIS PARTIAL IN THE CASE AND NOT JUDGING WITH
FAIRNESS, NOT HOLDING HER OATH OF DUTIES OR OFFICE.
D. THE LOWER COURT ERRED BY PRODUCING FALS RECORD IN THE COURT, STATING THAT THE
FORMER OWNER WAS PRESENT WHEN THIS WAS UNTRUE.
E. THE COURT ERRED BY NOT INVESTIGATING WHETHER WETHER THE FORMER OWNER STILL
RESIDES AT PROPERTY ,507 SANDY WALK STAFFORD TEXAS 77477 AND EVICTING PLAINTIFF
WRONGFULLY FOR A BEBT NOT OWED, CAUSING DAMAGES AND ABUSING PLAINTIFF WHO IS
ELDERLY AND DISABLED
F. THE DISTRICT COURT ERRED BY NOT INVESTTIGATING HOW PLAINTIFT ACQUIRE THE PROPERTY.
G. THE COURT ERRED BY NOT ENSUER ING FAIR COURT PROCEEDING , IN THE CASE 4.5.5 NOT
CONDUCTING THE TRAIL ON FEB 5th 2020 AS REQIRED, THE JUDICAL SYSTEM MUCH ENSURE
THAT JUDICAL PROCEEDING ARE CONDUCTING FAIRLY AND THE RIGHTS OF PARTIES ARE REJECT,
THE JUDGE WAS INPARITAL IN THE CASE FAVORING THE DEFENDANTS , SHE WOULD DENY THE
MOTIONS FILED BY PLAINTIFF AND APPROVED ALL MOTION FILED BY DEFENDANTS, PRINCILE 2
OF THE BASIC PRINCIPLE ALSO SPECIFY THAT THE JUDICIARY SHALL DECIDE MATTERS BEFORE
THEM IMPATIALITY, ON BASIC OF FACTS AND IN ACCORDIANCE WITH THE LAW , WITHOUT ANY
RESTRICTIONS , IMPROPER INFLUENCE , FROMS INDUCEMENT, PRESSURE 126 AS DOC
OEA/SER.L V/H95 DOC7REV OF THE LNTER /AMERICAN ON HUMANRIGHT 1996P.761.
H. THE DISTRICT COURT ERRED BY RENDERING JUDGMENT IN THE CASE WHEN THE CASE WAS
CLOSED TO THE COURT AND THE JUDGE HAD NO MORE JURISDICTION OVER THE CASE.
A
DEFENDANTS ABUSED PLAINTIFF WHO IS ELDERLY AND DIS^LED SEE CIVIL PRACTICE REMEDY CODE
CH81, HUMAN RESOURCES CH48,1522 DEPENDANTS ABUSED PLAINTIFF SEE EJA ELDER ABUSED ARTO
ELDER ABUSE , HEALTH CARELIAABILITY CLAIM SKINCARE V LLCV 426 S. W..3RD 753-758(TEXAS 214
QUOTING LOAISGNA ,379 20 CAL 4th W. 2550 YAMAADA V BAKER (1999 20 CAL 4th 23 ,DALANEY )

(O

REASONS FOR GRANTING THE WRIT
THE COURT SHOULD GRANT CERTIORARI TO CLARIFY THE PROPER COPE AND EVIDENTIARY UNIFY THE
DOCTRINE OF CHANCES , THIS COURT SHOULD GRANT REVIEW IN THIS CASE TO PROVIDE GUIDANCE ON
HOW TO APPLY THE DOCTRINE OF CHANCES , AN ISSUE THAT CONFOUNDED , AND VILL CONTINUE TO
APPLY CONFOUND , THE LOWER COURT INTENTIONALY OMMITED THE VIOLATIONS AND EVIDENCES
PRESENTED IN THIS CASE,AND SHULD MPARTIALITY . AND JUDGE DUDER DUE PROCESS OFCOLOR OF
THE LAW AND IGNORED , THE CONSTITUTIONAL VIOLATION, THE VIOLATION OD FAIR DEBT
PROTECTION ACT, AND ABUSE, THEREFORE, APPELLANT RESPECTFULLY REQUEST THAT THIS COURT
ISSUE A WRIT OF CERTIORARI.

CONCLUSION :

APPELLANT IS SEEKING JUSTICEFROM THE SUPREME COURT OF THE UNITED STATES AFTER HIS CASE IS
DISMISSED FROM THE UNITED STATES COURT FOR THE FIFTH CIRCUIT.NEW ORLEANS LA. THE
DEFENDANTS FILED MOTION TO DISMISS THE CAUSE DUE TO THE UNITED STATES COURT OF APPEALS
FOR THE FITH 5th NOT HAVING JURISDICTION OVER THE CASE , THE COURT DISMISSED HIS CASE ON
JUNE 28th 2021. PLAINTIFF FILED AN ALLEGATIONS IN AUGUST 23 2019, U.S. BANK AND CALIBER HOME
LOANS ON AUGUST 23rd FOR WRONG FUL EVICTON FOR A DEBT NOT OWED, AND HAD NO
CONTRACTUL AGREEMENT WITH THE BANKS, CALIBER HOME LOANS AND US BANK TRUST N.A. THE
CASE WAS TRIED,ON FEBRUARY 2020, THE ISSUES , THE VIOLATIONS BY DEFENDANTS WERE NOT
LOOKED INTO, THERE WERE IMPARTIALITY BY THE U.S JUDGE NANCY K. JOHNSON WHO OVER EXERCISE
HER POWER, DEPRIVED PLAINTIFF AND DEFENDANT FROM THE RIGHT OF JURY TRAIL, BOTH PLAINTIFF
AND DEFENDANTS DENIED JUDGMENT BY A MAGISTRATE JUDGE BUT APPROVED THE MOTION FOR
JURY TRAIL BUT DEPRIVED PLAINTIFF BY JURY TRAIL, SHE VIOLATED PLAINTIFF CONSTITUTIONAL RIGHT
AND RENDER JUDGMENT, THIS JUDGMENT IS NULL AND VOID BUT THE COURT DUE TO IMPARTIALITY
DISMISSED PLAINTIFF WITH PREJUDICE, PLAINTIFF IS OVER 65 YEARS OF AGE, DISABLED WAS PUT OUT
FROM HIS HOME IN THE COLD WINTER, ALL HIS PROPERTIES WAS BROKEN AND SOME LOTTED IN THE
COLD WINTER SEASON , PLAINTIFF COULD NOT HAVE ACCESS TO HIS MEDICATION, MEDICAL SERVICE
IN HIS HOME , PLAINTIFF WAS PUT OUT ON THE STREET EXPOSED TO DANGER, AS ARESULT OF THIS
ABUSE PLAINTIFF AND THE WHOLE FAMILY IS SUFFERING WITH TRAUMA, DEPRESSION , EMOTIONAL
DISTRESS , STRESS , PRESENTLY UNDERGOING COUNSELING, PLAINTIFF HAS PAID ALL TAXES, UPHELD
INSURANCE ON THE PROPERTY, RENOVATED THE PROPERTY AND SPENT OVER $20,000 IN RENOVATION,
DEFENDANTS EVICTED PLAINTIFF AND FAMILY AND OFFERED NO DUE COMPENSATION., DEFENDANTS
TOOK THE PROPERTY FROM PLAINTIFF AND THE ABANDONED THE PROPERTY LOCATED AT 507 SANDY
WALK STAFFORD TEXAS77489, THE PROPERTY IS DESTROYED BY MOLD AND IT IS UNKEPT.PLAINTIFF IS
SEEKING FOR JUSTICE, FOR THERE HAS BEEN NO JUSTICE,PLAINTIFF IS REQUESTING JUSTICE FROM THE
SUPREME COURT OF THE UNITED STATES , PLAINTIFF IS SEEKING RELIEF AND EQUITY IN THIS MATTER.
PATRICK CHARLES
PATRICK CHARLES

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

